AUDIT OF RTC MORTGAGE TRUST 1994-N2

         Audit Report No. 00-007
             March 17, 2000




         OFFICE OF AUDITS

   OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                      Office of Audits
Washington, D.C. 20434                                                                         Office of Inspector General



   DATE:           March 17, 2000

   TO:             Gail Patelunas, Deputy Director
                   Asset Management Branch
                   Division of Resolutions and Receiverships



   FROM:           Sharon M. Smith
                   Assistant Inspector General

   SUBJECT: Audit of RTC Mortgage Trust 1994-N2 (Audit Report No. 00-007)

   This report presents the results of an audit of Resolution Trust Corporation (RTC) Mortgage
   Trust 1994-N2. The Office of Inspector General (OIG) performed this audit in response to a
   request from the Federal Deposit Insurance Corporation’s (FDIC) Division of Resolutions and
                                                 1
   Receiverships (DRR) to audit various trusts. Mortgage Trust 1994-N2, created on
   December 15, 1994, consisted of a class A certificateholder—1994-N2 Associates, LP—and a
   class B certificateholder—the RTC.


   BACKGROUND

   The RTC had the authority to create trusts that sold, through competitive bid sales, certificates
   representing a percentage of beneficial ownership in those trusts. One of those RTC-created
   trusts, Mortgage Trust 1994-N2 (the Trust), consisted of 404 loans with a principal balance of
   approximately $345 million.

   The objective of the Trust, organized as a Delaware business trust, was to dispose of the assets
   purchased from the RTC as promptly as possible in a manner that maximized economic return.
   On December 15, 1994, the RTC signed a deposit trust agreement with Wilmington Trust
   Company, the trustee. The trustee was responsible for ensuring that all parties to the transaction
   fulfilled their respective obligations under the deposit trust agreement.

   In exchange for the assets, the RTC received from the trustee cash and two types of equity
   certificates—the controlling class A certificate and the noncontrolling class B certificate. The
   RTC, in turn, sold the class A certificate to 1994-N2 Associates, LP, which consisted of four
   investors—Bankers Trust, Sterling American Properties, AMRESCO Management (AMRESCO),
   and an individual investor. The RTC contracted with Aldridge, Eastman, and Waltch (AEW) to
   assist in its oversight responsibilities and oversee its class B interest in the Trust.


   1
    December 31, 1995, marked the RTC’s legislatively mandated sunset date. Responsibility for all RTC-related work
   ongoing as of that date transferred to the FDIC in accordance with the RTC Completion Act of 1993.
The class A certificate provided for the holder to receive 49 percent of the Trust’s income and be
responsible for the Trust’s daily operations. The class B certificateholder was entitled to the
remaining 51 percent of income. The class A certificateholder entered into a servicing agreement
with one of its partners—AMRESCO—to service the Trust’s mortgage loans and manage,
market, and dispose of the Trust’s assets.

The Trust, under an agreement with the State Street Bank and Trust Company (the bond trustee),
issued $118.9 million of commercial, loan-backed bonds to third-party institutional investors
through open-market transactions. As the class A certificateholder liquidated the Trust’s assets,
the proceeds were first used to retire the bonds and any remaining funds were then distributed to
the class A and class B certificateholders. The bonds were retired during 1997.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether AMRESCO charged the Trust only allowable
expenses and accurately accounted for and reported income. The audit covered the Trust’s
operations from its inception on December 15, 1994, through October 31, 1998.

To accomplish the objective, we interviewed FDIC personnel from the Agreement and Case
Management Section, Oversight and Monitoring Branch, DRR. Additionally, we reviewed
applicable FDIC policies and procedures relating to the administration of equity partnerships. We
also interviewed personnel from AEW—DRR’s oversight contractor—and AMRESCO—the
Trust’s servicer.

Our audit focused on the Trust’s income and expenses from loan servicing, operating assets, and
the sale or other disposition of assets. We randomly sampled 10 of the 404 assets to verify
whether AMRESCO accurately accounted for and properly reported the Trust’s income and
charged the Trust only allowable expenses. For the 10 assets sampled, we tested the receipt of
income from loan payments, operation of foreclosed assets, and asset dispositions through
settlements or sales. Those assets represented $2.6 million of the Trust’s $94.8 million in revenue
as of October 31, 1998.

For the first 5 of the 10 assets sampled, we determined whether related expenses were allowable
under the terms of the Trust’s agreements. We also reviewed all of AMRESCO’s and the class A
certificateholder’s overhead expenses charged to the Trust as well as AMRESCO’s servicing fees.
In total, we reviewed $31.3 million of the $75.7 million in expenses charged to the Trust.

We did not evaluate AMRESCO’s system of internal controls because the OIG concluded that it
could meet the audit objective more efficiently by conducting substantive tests rather than placing
reliance on the internal control system. The OIG conducted the audit from October 1998 through
December 1999 in accordance with generally accepted government auditing standards.




                                                 2
RESULTS OF AUDIT

For the 10 sampled assets, AMRESCO accurately accounted for and properly reported the
Trust’s income. However, we questioned $818,224 of unallowable expenses that AMRESCO
paid from the Trust’s funds. Table 1 summarizes the questioned costs by expense type.

Table 1: Summary of Questioned Costs
                          Expense Type                                 Amount Questioned
Unallowable fees paid to AMRESCO affiliates                                  $394,684
Unallowable asset servicing fees                                              366,871
Unallowable class A certificateholder expenses                                  44,537
Unallowable miscellaneous expenses                                              12,132
Total                                                                        $818,224
Source: OIG analysis of the Trust’s expenses.



Unallowable Fees Paid to AMRESCO Affiliates

AMRESCO billed the Trust $394,684 for an in-house tax consulting group. AMRESCO billed
the Trust and paid itself despite the prohibition in the Trust’s servicing agreement and other
documents against payments to affiliates of either the servicer or the class A certificateholder.
Both AMRESCO and class A certificateholder officials stated that the in-house tax consulting
services were in addition to AMRESCO’s normal servicing responsibilities. The officials added
that the services were performed at the discretion of the class A certificateholder and, therefore,
not subject to the prohibition against payments to affiliates.

We disagree with the AMRESCO and class A certificateholder officials on both points. The
servicing agreement required AMRESCO to establish subsidiary corporations and limited
partnerships, owned by the Trust, to take title to foreclosed properties. AMRESCO’s in-house
tax consulting group compiled information to file the subsidiary corporations’ and limited
partnerships’ federal, state, and local tax returns and performed other tax-related functions for the
Trust. Accounting for the subsidiary corporations and limited partnerships, including the tax
consequences of operating the subsidiaries, was necessary to protect the Trust’s assets and,
therefore, a responsibility of the servicer.

We also disagree with the assertion that the affiliate prohibition did not apply to services
performed at the discretion of the class A certificateholder. The servicing agreement clearly
prohibits any payment of the Trust’s funds to affiliates of either the servicer or the class A
certificateholder. The deposit trust agreement prohibits the class A certificateholder from
violating any term of the Trust’s documents, which include the servicing agreement. Accordingly,
any payment to an affiliate of the servicer or class A certificateholder, regardless of whether at the
class A certificateholder’s discretion, violated the terms of the deposit trust agreement.



                                                  3
We believe that the prohibition against the use of affiliates was included to safeguard the Trust
against self-dealing on the part of either the servicer or the class A certificateholder. The use of
its in-house tax consulting group provided AMRESCO with additional revenues and profits not
contemplated under the Trust’s documents. Such arrangements raise concerns as to whether the
charges were reasonable and necessary and in fact benefited the Trust. Accordingly, we
questioned $394,684 paid to AMRESCO for its tax consulting group.

While we consider the entire payment made to AMRESCO for its tax consulting group to be
unallowable because of the aforementioned reasons, we also identified that AMRESCO marked
up its direct costs associated with the tax consulting group. Using AMRESCO’s analysis of
                          2
markups of direct costs, we estimated that AMRESCO billed the Trust $153,046 more than it
incurred for the tax consulting group as shown in table 2.

Table 2: AMRESCO’s Markup of Tax Consulting Group Costs
        Employee Status                   Direct Cost                  Markup                   Total Billed
    AMRESCO employees                       $162,775                   $143,080                   $305,855
    Temporary employees                         78,863                      9,966                    88,829
    Total                                   $241,638                   $153,046                   $394,684
Source: OIG analysis of the Trust’s expenses.



Unallowable Asset Servicing Fees

In addition to its normal monthly servicing fees, AMRESCO billed the Trust $366,871 in
unallowable servicing fees, which included an additional flat monthly fee, asset file maintenance
fees, and payments for employee bonuses and temporary employees. AMRESCO was responsible
for servicing the assets, and the fee schedule included in the servicing agreement specified
AMRESCO’s compensation for all servicing activities. The servicing agreement allowed
AMRESCO to subcontract—at its own cost—for all or a portion of its servicing requirements.
Accordingly, we questioned $366,871 in asset servicing fees that were in addition to the specified
monthly servicing fees. AMRESCO billed the Trust additional servicing fees as follows:

       •    $336,875 for additional flat monthly servicing fees,

       •    $20,548 for staff time relating to the reconstruction and reconciliation of the mortgage
            loan files,

       •    $3,136 for temporary employees, and

       •    $6,312 for asset manager bonuses.
2
 AMRESCO prepared an analysis of its markup on this and three other trusts based on concerns raised by the OIG in
another report entitled Audit of RTC Mortgage Trust 1992-N1 (audit report number 99-035, dated August 23, 1999).


                                                          4
The servicing agreement provided for a monthly servicing fee for each asset based on asset value.
 However, beginning in February 1995, AMRESCO started billing the Trust an additional flat
monthly fee of $6,875 for servicing the pool of assets. Through February 1999, AMRESCO
billed the Trust a total of $336,875 in additional servicing fees. According to AMRESCO
officials, the class A certificateholder was concerned that AMRESCO did not have enough asset
managers to handle all of the Trust’s assets and agreed to compensate AMRESCO for additional
personnel until the number of assets was reduced. The officials also stated that AMRESCO
should have discontinued the additional servicing fee after December 1995 because the number of
assets that the Trust held decreased below an established threshold. However, the officials added
that AMRESCO continued to charge the additional monthly fee until February 1999 when we
requested information on servicing fees charged to the Trust.

In April 1999, AMRESCO reimbursed the Trust $261,250 to cover the period after December
1995 but did not reimburse the Trust for the remaining $75,625 for the period from February
1995 through December 1995. Although the class A certificateholder authorized the payments,
the additional servicing fees were not allowed by the servicing agreement. Accordingly,
AMRESCO should reimburse the Trust $75,625 that it was paid for the period February 1995
through December 1995.

According to AMRESCO officials, the $20,548 billed for reconstruction and reconciliation of the
mortgage loan files was necessary because the loan files were in disarray and need of updating.
The officials said that the $6,312 billed for bonuses was for incentive payments to selected asset
managers to continue employment through a major asset sale. However, those expenses as well
as the $3,136 paid for temporary employees were for activities covered by the normal servicing
fee.


Unallowable Class A Certificateholder Expenses

AMRESCO paid $44,537 from the Trust’s funds for unallowable travel and entertainment
expenses of the class A certificateholder. Generally, the expenses appeared to be for the class A
certificateholder's partners to attend partnership meetings. Neither the deposit trust agreement
nor the servicing agreement contained provisions for the reimbursement of travel and
entertainment expenses incurred by the class A certificateholder.


Miscellaneous Unallowable Expenses

AMRESCO charged the Trust $12,132 for unallowable miscellaneous expenses. The Trust’s
servicing agreement provided that disbursements from the Trust’s funds had to be directly




                                                5
related to the management and liquidation of the Trust’s assets. However, AMRESCO billed
expenses to the Trust that were unrelated to asset management and liquidation as follows:

     •   $7,419 for entertainment, including $534 for a baseball game outing and $1,629 for a
         nightclub outing for class A certificateholder executives and AMRESCO staff;

     •   $4,643 for duplicate payments to a temporary employment agency;

     •   $60 for an employee’s CPA license; and

     •   $10 for a credit card fee.

Class A certificateholder officials stated that the miscellaneous charges were normal business cost
to enhance employee moral and those expenses were reasonable given the overall performance of
the Trust. However, the servicing agreement limited use of the Trust’s funds to expenses
necessary for management and liquidation of the Trust’s assets. The miscellaneous expenses
listed above were not necessary for those purposes and were, therefore, unallowable.


CONCLUSIONS AND RECOMMENDATIONS

AMRESCO accurately accounted for and properly reported the Trust’s income for the sampled
assets reviewed. However, AMRESCO charged the Trust $881,110 for expenses that were not
allowable under the terms of the servicing agreement or the deposit trust agreement.
Accordingly, we recommend that the Deputy Director, Asset Management Branch, DRR, take the
following actions:

     (1) Disallow $394,684 in fees paid to AMRESCO affiliates and require AMRESCO to
         reimburse the Trust (questioned cost of $201,289 representing the FDIC’s 51-percent
         share).

     (2) Disallow $366,871 in unallowable servicing fees paid to AMRESCO and require
         AMRESCO to reimburse the Trust (questioned cost of $187,104 representing the
         FDIC’s 51-percent share). AMRESCO reimbursed the Trust $261,250 in April 1999,
         leaving an additional $105,621 to be reimbursed.

     (3) Disallow $44,537 in travel and entertainment expenses paid to the class A
         certificateholder and require AMRESCO to recover those funds and reimburse the Trust
         (questioned cost of $22,714 representing the FDIC’s 51-percent share).

     (4) Disallow $12,132 in miscellaneous expenses paid to AMRESCO and require
         AMRESCO to reimburse the Trust (questioned cost of $6,187 representing the FDIC’s
         51-percent share).




                                                  6
CORPORATION COMMENTS AND OIG EVALUATION

On February 18, 2000, the Deputy Director, DRR, provided a written response to a draft of this
report. The Deputy Director’s response agreed with the recommendations and provided the
requisites for a management decision on each of the four recommendations. The Deputy
Director’s response is presented as appendix I to this report.

A summary of the Deputy Director’s response to recommendation 1 and our analysis follows.
The response to recommendations 2, 3, and 4 is not summarized because the actions planned or
completed are identical to those recommended.

Disallow $394,684 in fees paid to AMRESCO affiliates and require AMRESCO to
reimburse the Trust (questioned cost of $201,289 representing the FDIC’s 51-percent
share): The Deputy Director agreed that payments to affiliates were not allowable under the
Trust agreements. However, the Deputy Director stated that to the extent that the questioned
payments, including any imputed markup, were reasonable and within industry standards for such
services, DRR would not pursue reimbursement of the expenses because they were incurred in
good faith. The Deputy Director added that it would be inequitable not to pay the questioned
amounts because the Trust benefited from the services. Although the Deputy Director’s response
contained the requisites for a management decision, we disagree with the Deputy Director’s
reasons for not seeking reimbursement for the fees paid to AMRESCO affiliates. In addition to
the fees being unallowable under the terms of the Trust agreements, the use of affiliates provided
AMRESCO with additional revenues and profits through a self-dealing arrangement. Such an
arrangement raises concerns over whether the charges were reasonable and necessary and,
therefore, benefited the Trust as asserted by the Deputy Director.

Appendix II presents management’s proposed action on our recommendations and shows that
there is a management decision for each recommendation in this report. Based on the audit work,
the OIG will report questioned costs of $417,294 in its Semiannual Report to the Congress.




                                                7
                                                                                          APPENDIX I


FDIC
Federal Deposit Insurance Corporation
Washington D.C. 20429                                       Division of Resolutions and Receiverships


DATE:                         February 18, 2000


MEMORANDUM TO:                Sharon M. Smith
                              Assistant Inspector General



FROM:                         Gail Patelunas
                              Deputy Director, DRR

SUBJECT:                      OIG Draft Report Entitled
                              RTC Mortgage Trust 1994 – N2



On December 17, 1999 the Office of the Inspector General (OIG) issued its draft report on the
results of an audit of the RTC Mortgage Trust 1994-N2 (Trust), in which the FDIC is the
Class B Certificateholder (Class B). As noted in the report, OIG selected this Trust for review
in response to DRR’s request for an audit of various trusts. The report concludes that the
Servicer, AMRESCO Management (AMRESCO), accurately accounted for and properly
reported the Trust’s income; however, the Trust was charged $818,224 for expenses that were
not allowable under the terms of the transaction documents.

Following are Management’s responses to the areas questioned in the audit report.

1. AMRESCO Management inappropriately charged the Trust $394,684 in unallowable fees
   for an in-house tax consulting group.

Management agrees in principle with the OIG’s position that restrictions on payments to
affiliates apply to expenses authorized under the Deposit Trust Agreement (DTA) as well as to
those under the Servicing Agreement. However, to the extent that the questioned payments
including any imputed “mark-up” are reasonable and within industry standards for such
services, DRR will not pursue reimbursement of the expenses as they were incurred in the good
faith belief that they were payable and it would be inequitable not to pay them under the facts
and circumstances because the Trust benefited from the services.

2. AMRESCO Management improperly billed the Trust $366,871 in unallowable servicing
   fees including $336,873 in flat monthly fees. AMRESCO reimbursed the Trust $261,250
   in April, 1999, leaving $105,621 to be reimbursed.


                                               8
RTC Mortgage Trust 1994 – N2
Draft Audit Report Response
Page 2


Management concurs with the recommendation that the additional servicing fees should be
disallowed. We will seek recovery of $105,621 in expenses improperly charged to the Trust.

3. Disallow payment of $44,537 for travel and entertainment expenses paid to the Class A
   Certificateholders.

Management concurs with the OIG's finding that $44,537 in Class A Certificateholder expenses
should be disallowed and will seek reimbursement for that amount.

4. AMRESCO Management improperly paid miscellaneous expenses totaling $12,132.
Management concurs with the OIG’s finding and will request reimbursement in the amount of
$12,132 for these expenses.

Within thirty days of the issuance of the final report by the OIG, Management will issue a
demand letter requesting that AMRESCO or the Class A Holder, as appropriate, reimburse the
Trust $162,290 (of which the FDIC will receive $82,768 as its 51% share) the amount agreed to
as disallowed costs.




cc:    Nick Ravichandran, OIG
       Cynthia Shaughnessy, Legal
       Doug Stinchcum, DRR
       Hank Abbot, DRR
       Dean Eisenberg, DRR
       Joci Spector, DRR
       Edward Dox, AEW




                                             9
                                                                                                                                 APPENDIX II
                                         MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

     •   the specific corrective actions already taken, if applicable;

     •   corrective actions to be taken together with the expected completion dates for their implementation; and

     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for
any disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management's written response to our report.

                                                                                   Expected     Documentation That                 Management
   Rec.                                                                           Completion    Will Confirm Final   Monetary       Decision:
  Number               Corrective Action: Taken or Planned / Status                  Date             Action         Benefits       Yes or No
         1     The Deputy Director, DRR, agreed with our recommendation.           04/15/00    Deputy Director’s        $-0-            Yes
                However, the Deputy Director stated that DRR would not                         response and demand
               pursue recovery of the questioned costs—including any                           letter.
               imputed markup—to the extent that the costs were reasonable
               and within industry standards for such services.
         2     The Deputy Director, DRR, agreed with our recommendation            04/15/00    Deputy Director’s     $187,104           Yes
               and stated that DRR would seek recovery of the questioned                       response and demand
               costs.                                                                          letter.
         3     The Deputy Director, DRR, agreed with our recommendation            04/15/00    Deputy Director’s      $22,714           Yes
               and stated that DRR would seek recovery of the questioned                       response and demand
               costs.                                                                          letter.



                                                                             10
                                                                      Expected     Documentation That              Management
 Rec.                                                                Completion    Will Confirm Final   Monetary    Decision:
Number         Corrective Action: Taken or Planned / Status             Date             Action         Benefits    Yes or No
  4      The Deputy Director, DRR, agreed with our recommendation     04/15/00    Deputy Director’s      $6,187       Yes
         and stated that DRR would seek recovery of the questioned                response and demand
         costs.                                                                   letter.




                                                               11
